NO.

IN THE SUPREME COURT OF THE UNITED STATES

SEAN P. REILLY - PETITIONER
VS.
MARK INCH.
SECRETARY. FLORIDA DEPARTMENT OF CORRECTIONS. - RESPONDENT
PROOF OF SERVICE
I, SEAN P. REILLY, do swear or declare that on this date, November 5, 2020,
as required by Supreme Court Rule 29 I have served the enclosed PETITION FOR
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid.
The name and address of those served are as follows:
Office of the Attorney General, The Capitol - Suite PL01, Tallahassee, FL 32399;
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this

6*;day of November 2020.
Sean P. Reill
14

